Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
Learn About
Us
Meet
OIG Senior Staff
Report
Fraud
Apply
for a Job
Visit
our Library
FAQs
Contact
Us
Fugitive
Felon Program
Links
of Interest
Site
Map
Español
OIG Home
Audit
Report - A-13-97-21009
Office
of Audit
Missing Data Hinders
Vocational Rehabilitation Referrals - A-13-97-21009 - 2/5/97
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS
Referral
Decision Codes Were Missing for Over One-Fifth of all Applicants
Reviewed
Over
Two-Thirds of all Applicants Records Were Incomplete in
at Least One of the Demographic Categories Reviewed
The
Missing Codes Prevent SSA From Evaluating and Improving Its VR
Referral System
RECOMMENDATIONS
APPENDICES
List of Contributors
EXECUTIVE
SUMMARY
PURPOSE
To obtain and summarize baseline demographic information about disabled
adults who are considered candidates for vocational rehabilitation
(VR).
BACKGROUND
The Social Security Administration (SSA) administers two disability
programs, Social Security Disability Insurance (DI) and Supplemental
Security Income (SSI), which pay benefits to qualified disabled individuals.
The Department of Education`s VR program provides comprehensive
vocational rehabilitation services designed to help those with the
most severe physical and mental disabilities return to the work force.
The Social Security Act permits payment of SSA funds to States for
VR services to make services more readily available to SSA beneficiaries
and to achieve savings for the SSA trust funds. Regulations permit
the Commissioner of Social Security to enter into agreements or contracts
with alternative service providers in cases where a State agency
declines to participate in providing VR services.
We extracted data from SSAs Disability Determination File
(SSA-831) for this review. We selected all adult, nonblind disability
and SSI applicants who filed initial claims and who were issued a
medical decision (approved or denied) in Calendar Year (CY) 1992.
We originally intended to gather baseline data about disabled adults
who were considered candidates for VR. With such data, we had hoped
to evaluate referral practices. However, we were unable to carry
out our study. We discovered that needed codes were missing from
the records.
FINDINGS
Referral Decision Codes Were Missing for Over One-Fifth of
All Applicants Reviewed
Almost 22 percent (550,740) of the 2.5 million applicants did not
have a referral decision code. No referral decision was annotated
in the SSA-831 record.
Over Two-thirds of All Applicant`s Records Were Incomplete
In At Least One Of The Demographic Categories Reviewed
At least two-thirds of the records involved in the sample were incomplete
in at least one of the demographic categories reviewed. About 67
percent (1,683,770) of all applicants and 48 percent (90,070) of
all referrals had an "unknown" past customary occupation
code. Additionally, over 24 percent (620,550) of known applicants
and 18 percent (35,410) of known referrals had an "unknown" educational
level code.
The Missing Codes Prevent SSA From Evaluating and Improving
Its VR Referral System
Successfully enrolling all appropriate disability beneficiaries
in VR programs depends in large part upon the completeness and accuracy
of basic demographic data required to accurately identify potential
candidates. The absence of such data:
Inhibits identification and referral of all possible candidates
for VR. Prevents SSA from identifying claimants which the State
chooses not to accept, so that potential referral to private
rehabilitation organizations can be accomplished.
Precludes collection of accurate baseline and longitudinal
data needed to accurately assess which applicants are being
referred, as recommended in the Disability Advisory Council`s
1988 Report to the Congress.
Hinders the ability to automate the screening process to efficiently
select appropriate candidates for VR services, as previously
recommended in the Department of Health and Human Services` Office
of Inspector General (HHS/OIG) report released in April 1990
entitled, "Social Security Payments for Vocational
Rehabilitation" (OEI-07-89-00950), and encouraged
in the 1994 report released by the Joint Vocational Rehabilitation
Task Force.
RECOMMENDATIONS
SSA SHOULD ENSURE, THROUGH MANDATORY CODING, THAT:
Complete and accurate demographic information is entered
into the Disability Determination File.
The Disability Determination File reflects which candidates
are referred and accepted for State VR services.
Agency Comments
SSA agrees that complete and accurate demographic data needs to
be recorded for VR management information purposes. However, there
is disagreement concerning our recommendations for collecting VR
information to assure the identification and referral of all possible
candidates for VR. The Office of the Inspector Generals (OIG)
response to SSAs concerns is in the agency comments and OIGs
response on page 6.
Back
to top
INTRODUCTION
PURPOSE
To obtain and summarize baseline demographic information about disabled
adults who are considered candidates for VR.
BACKGROUND
Social Security Administration
SSA administers two disability programs, Social Security DI and
SSI, which pay benefits to qualified disabled individuals. The DI
program, authorized by title II of the Social Security Act, provides
benefits to insured disability workers and their families in amounts
determined by the wage earner`s work history. The SSI program,
authorized by title XVI of the Social Security Act, provides payments
to financially needy, aged, blind, and disabled persons, including
individuals that do not have the required insured status to receive
Social Security DI payments. In 1993, the DI program and SSI program
paid out $34.6 billion and $17.3 billion, respectively to approximately
5.3 million and 4.2 million disabled beneficiaries and their families.
In its March 1988 report to the Congress, the Disability Advisory
Council reported that in any given year, "fewer than 15 percent
of beneficiaries are referred for VR services and only a small portion
of these individuals received services." The SSA`s published
statistics also showed that less than one-half of one percent of
disabled individuals approved for DI or SSI are removed from the
disability roles due to their return to work.
Claims representatives in SSAs field offices (FO) take initial
disability claims information from applicants. If the applicant meets
the nonmedical criteria, then medical documentation is forwarded
to State disability determination services (DDS) offices for further
processing. The SSA FO completing the disability claim for the applicant,
prepares a paper Form SSA-831 containing identifying data such as
name, Social Security number, type(s) of claim, sex, etc., then keys
this data into the SSA-831 system.
Disability Determination Services
DDSs are State organizations funded by SSA. They are responsible
for adjudicating disability claims based on Federal statutes and
SSA rules and regulations governing the DI program. They also determine
whether medical and work history information shows that the applicant
has the potential for rehabilitation and should be referred to the
Vocational Rehabilitation Agency (VRA). This determination is performed
by applying screening criteria developed jointly by SSA, DDSs and
Vocational Rehabilitation Agencies (VRA). If an examiner decides
to refer the applicant for VR services, copies of the application
and any relevant medical or vocational evidence are forwarded to
the VRA. Upon completion of the medical determination, the DDS inputs
decisional data such as past occupation and education, impairment,
allowance or denial, as well as the decision to refer or not refer
the applicant for VR.
State VR Agencies
The Rehabilitation Act of 1973, as amended, authorizes the Department
of Education`s VR program to provide comprehensive VR services.
This program is designed to help those with physical and mental disabilities
return to the work force. This is primarily done through Federal
funding to State VRAs that directly provide services. These services
can include counseling, work evaluation, work adjustment training,
job skills training, job-seeking skills training and medical rehabilitation
management.
The Federal/State VR program is operated and administered through
a combination of about 80 State general and blind-only VRAs and various
other State and private facilities. The VRAs provide individualized
VR services to accepted beneficiaries according to a written rehabilitation
plan that is developed jointly by a VRA counselor and the individual.
Counselors at VRAs evaluate whether there is a reasonable expectation
that the individual may benefit from VR services in terms of employability.
This judgment is based on the individual`s impairment and the
availability of services and resources.
SSA Reimbursement
SSA reimburses the States for the cost of rehabilitation in those
cases where the services are found to have resulted in the beneficiary`s
performance of substantial work for a continuous period of at least
9 months. Payment can also be made for services provided to a beneficiary
who, without good cause, refuses to continue to accept VR services
or fails to cooperate, if the beneficiary`s benefits have been
suspended. Under the current program, States must submit individual
claims for reimbursement, showing the cost of VRA`s services
provided each beneficiary and the period during which services were
provided.
The Social Security Act and implementing regulations permit the
Commissioner of Social Security to enter into agreements or contracts
with alternative service providers in cases where a State agency
declines to participate in providing VR services.
Past Relevant Studies
In March 1988, the Report of the Disability Advisory
Council recommended that the Congress direct SSA
to collect data concerning the characteristics and outcomes of
beneficiaries who are and are not served by State VRAs. Further,
the report stated that "Implementation of this recommendation
will assist SSA in validating its current VR referral criteria
and in determining which beneficiaries are the best candidates
for VR services. It will also provide data on the relative cost-to-benefit
ratios of SSA`s VR programs. . . ."
In April 1990, the HHS/OIG released a report entitled, "Social
Security Payments for Vocational Rehabilitation" (OEI-07-89-00950).
The report recommended that "SSA should strengthen the linkage
between the SSA VR payment program and actions to . . . rehabilitate
SSA clients." Further, it recommended that SSA require States
to establish a formal automated mechanism to screen and enroll
those SSA clients who show the greatest potential for successful
rehabilitation.
On May 13, 1994, the Joint Vocational Rehabilitation Referral Task
Force issued its final report which identified obstacles to achieving
greater numbers of referral acceptances by the VRAs under the existing
process. The report found that DDS referrals are not monitored and
that no regular follow-up exists. In discussing methods to make the
best use of DDS/VRA resources, the task force described an automated
screening system developed by the New York VRA. This system
is designed to consider the screening logic typically followed by
a VR counselor. The task force ". . . encouraged the use of
automation for screening referrals."
METHODOLOGY
SSA collects and maintains data on disability applicants in a computerized
data base called the Disability Determination File (SSA-831). SSAs
FOs and DDSs input information into this data base including the
applicants name, Social Security number, type of claim, sex,
race, age, alleged impairment, occupation, education, referral determination,
and decision on the claim. From this data base we selected all adult,
nonblind DI and SSI applicants who filed initial claims and who were
issued a medical decision in CY 1992. We included applicants whose
claims were approved, as well as those whose claims were denied.
This resulted in a data base of 2.5 million applicants.
We originally intended to gather baseline data about disabled adults
who were considered candidates for VR. With such data, we had hoped
to evaluate referral practices. However, we were unable to carry
out our study. We discovered that needed codes were missing from
the records.
Our review was conducted between December 1994 and December 1995
in Baltimore, Maryland. We conducted this inspection in accordance
with the Quality Standards for Inspections issued by
the President`s Council on Integrity and Efficiency.
Back
to top
FINDINGS
REFERRAL
DECISION CODES WERE MISSING FOR OVER ONE-FIFTH OF ALL APPLICANTS REVIEWED
Almost 22 percent (550,740) of the 2.5 million applicants did not
have a referral decision code annotated in the SSA-831 file. The
table below illustrates the extent of the missing data.
APPLICANTS
REFERRED
NOT REFERRED
BLANK REFERRAL CODE
2,502,150
187,600
1,763,810
550,740
OVER
TWO-THIRDS OF ALL APPLICANTS RECORDS WERE INCOMPLETE IN
AT LEAST ONE OF THE DEMOGRAPHIC CATEGORIES REVIEWED
At least two-thirds of the claims involved in our sample were incomplete
in at least one of the demographic categories reviewed. For example,
about 67 percent (1,683,770) of all applicants and 48 percent (90,070)
of all referrals had a missing past customary occupation code. Additionally,
over 24 percent (620,550) of known applicants and 18 percent (35,410)
of known referrals had a missing educational level code. The following
tables identify the numbers and types of missing codes for these
applicants.
ALL APPLICANTS
MISSING DEMOGRAPHIC CATEGORIES
# of Claims
Missing Code
% of
Claims Filed
Occupation
1,683,767
67.03
Education
620,557
24.70
REFERRED APPLICANTS
MISSING DEMOGRAPHIC CATEGORIES
# of Referred Claims Missing Code
% of Referred Applicants
Occupation
90,071
48.01
Education
35,413
18.88
Two demographic categories always coded were race code and the alleged
impairment (body system) code. An interface between the Disability
Determination File and the Numident File ensures that the race code
is always captured. The alleged impairment (body system) code was
always completed, since it is mandatory that this field be coded
before the claim can be adjudicated.
MISSING
CODES PREVENT SSA FROM EVALUATING AND IMPROVING ITS VR REFERRAL
SYSTEM
Successfully enrolling all appropriate disability beneficiaries
in VR programs depends in a large part upon the completeness and
accuracy of basic demographic data required to accurately identify
potential candidates. The absence of such data:
Inhibits identification and referral of all possible candidates
for VR. Prevents SSA from identifying claimants which the State
chooses not to accept, so that potential referral to private
rehabilitation organizations can be accomplished.
Precludes collection of accurate baseline and longitudinal
data needed to accurately assess which applicants are being referred,
as recommended in the Disability Advisory Council`s 1988
Report to the Congress.
Hinders the ability to automate the screening process to efficiently
select appropriate candidates for VR services, as previously
recommended in the HHS/OIG report released in April 1990 entitled, "Social
Security Payments for Vocational Rehabilitation" (OEI-07-89-00950),
and encouraged in the 1994 report released by the Joint Vocational
Rehabilitation Task Force.
Back
to top
RECOMMENDATIONS
SSA SHOULD ENSURE, THROUGH MANDATORY CODING, THAT:
Complete and accurate demographic information is entered into
the Disability Determination File.
The Disability Determination File reflects which candidates are
referred and accepted for State VR services.
Agency Comments and OIG Response
SSA`s comments are contained in their entirety in Appendix A.
SSA agrees that complete and accurate demographic data needs to be
recorded for VR management information purposes. There is disagreement,
however, that coding the Form SSA-831 is the only way to collect
these data, or that the absence of such coding indicates that State
DDSs do not have all the information necessary for making a VR referral
decision. The comments indicate that several other data sources are
used to collect VR management information.
There appears to be some confusion concerning our recommendations.
It is not our assumption that SSA is unable to collect management
information necessary for DDSs to identify and refer all possible
candidates for VR referrals. Rather, our position is that the collection
of VR information in a piecemeal fashion, as described in the SSA
comments, is an inefficient process. Our recommendations are intended
to enhance the identification and referral of all possible candidates
for VR. Moreover, our recommendations are intended to facilitate
the development of an automated screening process to capture and
control baseline information about candidates for VR services.
We believe that an automated system that captures and controls baseline
information about individuals referred for VR services is essential.
Disability applications will likely continue to exceed 2 million
per year, and continued reliance on a manual process is inefficient.
The fact that the demographic information exists in a combination
of data systems or paper files which require manual access is an
impediment to an efficient VR selection and referral process.
Back
to top
APPENDIX
B
LIST OF CONTRIBUTORS
This evaluation report was prepared by the Office of Audit under
the direction of Scott Patterson, Director, Evaluation and Technical
Services. Project staff included Alan Stubbs, Senior Evaluator.
The following individuals from the Department of Health and Human
Services/Office of Inspector General, were responsible for production
of the draft report of this project:
Kansas City Region Headquarters
James H. Wolf, Regional Inspector General Linda Moscoe
Linda Paddock, Project Leader
Tim Dold
Perry Seaton
Dennis Tharp
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified